<html>
<title> - THE SHOCKING TRUTH ABOUT NORTH KOREAN TYRANNY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       THE SHOCKING TRUTH ABOUT 
                          NORTH KOREAN TYRANNY

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 26, 2014

                               __________

                           Serial No. 113-132

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
87-337                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0166716e416274727569646d712f626e6c2f">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Grace Jo, survivor of North Korean human rights abuses.......     8
Mr. Greg Scarlatoiu, executive director, Committee for Human 
  Rights in North Korea..........................................    15
Mr. Bruce Klingner, senior research fellow, Northeast Asia, The 
  Heritage Foundation............................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Grace Jo: Prepared statement.................................    11
Mr. Greg Scarlatoiu: Prepared statement..........................    17
Mr. Bruce Klingner: Prepared statement...........................    26

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63


             THE SHOCKING TRUTH ABOUT NORTH KOREAN TYRANNY

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The hearing will come to order. Good afternoon. 
I am chairman of the Asia and Pacific Subcommittee, and I'd 
like to yield my time to the chairman of the full committee, Ed 
Royce of California.
    Mr. Royce. I thank the gentleman for yielding, and I want 
to welcome our witnesses. I think my good friend, Steve Chabot, 
has done a lot of work over the years, and holding this 
important and timely hearing is part of that effort to make 
certain that we see some justice for people who have been 
through things which are unimaginable for us here.
    I want to take the opportunity to welcome Ms. Minhee Jo to 
the Foreign Affairs Committee, and to thank her for bravely 
sharing her story. And I want to also share, as chairman of the 
Foreign Affairs Committee, that it's my commitment to all the 
people who continue to suffer in North Korea that this 
committee will do all it can Kim Jong-un and his generals 
accountable for crimes against humanity.
    Today, I am announcing that the committee plans to consider 
bipartisan sanctions legislation against North Korea which I 
authored in May of this year. My legislation targets the regime 
where it is most vulnerable, in the pocketbook, and it will 
prevent Kim Jong-un from assessing or accessing, having the 
ability to use that hard currency that he needs in order to pay 
his generals.
    H.R. 1771 now has over 130 cosponsors, and it will go a 
long way toward bankrupting the regime in North Korea.
    It is important that we wake up to the reality that North 
Korea is not interested in reform. Frankly, that's not--
denuclearization does not drive their calculus. And, thus, I 
urge the administration to work with this committee so that the 
people of North Korea can finally have an opportunity to live 
without fear, to have an existence without abuse.
    And I've long been involved in shining the spotlight on the 
horrific human rights abuses in North Korea. I've had many, 
many trips to that part of the world and spoken with so many 
defectors about their particular circumstances. I've had people 
show me the scars on their bodies from when they tortured in 
North Korea.
    I co-chair the International Parliamentarians Coalition for 
North Korean Refugees and Human Rights, and I can say that the 
Committee of Inquiry Report on North Korea offers one of the 
most comprehensive accountings of human rights abuses in that 
country.
    Despite the international community's focus on North 
Korea's weapons program over the past 20 years, too little 
attention is paid to the question of human rights, the lack of 
human rights in the country. And this report has finally 
changed the way the world views North Korea, and I'm hopeful 
that with this new awareness action is not far behind.
    Last month I led a bipartisan delegation to Seoul. I've 
been there many times, but this is the second time in some 12 
months in order to reaffirm our nation's special alliance with 
South Korea. In my meetings with President Park, she has always 
stressed the importance of fighting, struggling for human 
rights for the people of North Korea. She said it last year, 
and she said it again this year to us.
    As a longtime friend of the Korean people, I know that this 
issue is very important to South Koreans and Korean Americans 
alike, and that's why I'm committed to passing this legislation 
into law, and also because I've looked into the eyes of those 
who have survived in North Korea. And I want to make certain 
that that type of horrific thing does not continue to occur.
    Fighting for human rights is one of the most important 
tasks that we have as a nation, and that we have here as 
members of this committee. When we see grave abuses occurring 
it is our duty to stand up and take action.
    Chairman Chabot, thank you for your leadership on this 
issue, and I look forward to hearing the testimonies of this 
distinguished panel.
    Mr. Chabot. Thank you, Mr. Chairman. And the chair 
announces that we have a series of votes on the floor. The 
buzzers that you heard going off were to call us over to the 
floor to vote, so we're going to go over and vote right now. 
Then we'll come back and finish opening statements, we'll hear 
from the panel, and have time for questions, and that sort of 
thing. So, we apologize for any inconvenience, but we have to 
head over and vote. We'll be back in a short period of time. 
The committee is in recess.
    [Recess.]
    Mr. Chabot. Welcome, everyone, to this afternoon's Asia and 
Pacific Subcommittee hearing on the shocking truth about North 
Korean tyranny. I want to thank my colleague from California, 
Mr. Ami Bera, for serving as today's ranking member and also 
thank our distinguished witnesses for being here, as well. 
We're especially extremely grateful to Ms. Grace Jo, as the 
chairman mentioned before, that you could join us here this 
afternoon. Your perspective will be invaluable for everyone to 
hear today. I'll make my formal introductions of all the 
witnesses after I've concluded and the ranking member has 
concluded his opening statements here this afternoon.
    We've already heard from the full committee chairman, Mr. 
Royce, but we had to go into recess because of votes. We won't 
have any votes for another hour and half or so, I don't think, 
so hopefully we can get through the rest of the hearing before 
we have votes again.
    For 60 years, North Korea has been ruled by one of the most 
repressive totalitarian regimes on earth. Millions of North 
Koreans have been starved to death and sent to concentration 
camps to die in inhumane ways not seen since the days of Hitler 
or Stalin. The extent of human rights abuses, a list too long 
to go into great detail, are deliberate and calculated actions 
utilized by the Kim regime to quell dissent and maintain 
ultimate control, just as his father and grandfather did before 
him.
    In February, the United Nations Commission of Inquiry 
released its report on human rights in North Korea, yielding a 
compendium of crimes against humanity committed by the North 
Korean regime. While the totality of this report is certainly 
shocking--a wake up call for the international community to 
take action--the horrors described are not a surprise to the 
human rights community, which has worked with dozens of 
individuals who have been lucky enough to escape from the Kim 
chamber of horrors. Yet, North Korea remains one of the least 
understood regimes in a world seemingly focused elsewhere.
    As discussions at the U.N. about the Commission of Inquiry 
Report continue throughout this week in Geneva, I would urge 
the international community to reach a consensus to do more 
than just condemn by words. The time for willful blindness, for 
looking the other way for North Korea's abuses must come to an 
end. There is a tremendous amount the international community 
can and must do. Future discussions about North Korea should 
make human rights a priority right alongside nuclear 
disarmament.
    North Korea has consistently represented one of the 
greatest security challenges for the United States because of 
its determined pursuit of nuclear weapons and missiles. But the 
threat North Korea poses to our South Korean ally, its record 
of human rights abuses and the dangers that it presents to 
regional stability make dealing with North Korea that much more 
difficult. After decades of trying to negotiate, cajole, and 
pressure North Korea to halt its proliferation and stand by its 
commitments, we have seen little success. In fact, North Korea 
seems much more determined today to act irresponsibly than ever 
before.
    Since 2009, the U.S. has pursued a reactive policy toward 
North Korea called ``Strategic Patience,'' which maintains 
leveled pressure and resolute warnings with a door to renewed 
discussions partly open. This policy, however, has not slowed 
North Korea's nuclear program, as illustrated by Pyongyang's 
decision to restart its Yongbyon reactor, and as has been noted 
in the recently released U.N. Panel of Experts Report, North 
Korea continues to develop creative ways to evade U.N. Security 
Council prohibitions on trade and economic activities to boost 
its nuclear and missile programs. It has also done nothing to 
decrease the extent of human rights violations in North Korea. 
Clearly, U.S. policy has been ineffective.
    Since Kim Jong-un assumed power in December 2011, he has 
embraced the evil, tyrannical, depraved, corrupt, and vile 
characteristics of his father and grandfather. Despite only 
slight stylistical leadership differences, the ultimate goals 
for North Korea remain the same and the pursuit of nuclear 
weapons continues unfettered.
    Throughout 2012 and 2013, the world witnessed an escalation 
of war-like rhetoric and dangerously irresponsible actions from 
the third-generation Kim, who wanted nothing more than to show 
the world his threats were real. And this bellicose behavior 
continues. During this year's joint U.S.-South Korea military 
drills, which began in February, North Korea conducted a number 
of prohibited missile tests. Just this past weekend, North 
Korea test fired 46 short-range rockets, bringing the total to 
70 over the course of the last month, one of which came within 
range of a Chinese passenger plane. Pyongyang has claimed these 
tests as part of its own routine self-defense exercises.
    The Obama administration appears to have outsourced its 
North Korean policy to China, but China's policies, too, are 
failing. The sudden and brutal removal of Jang Sung Taek 
thought to be close to Beijing, was a blow to China, and now 
the Kim regime seems to be trying to push China out of its 
circle of influence. This raises a number of concerns and 
questions as to how China will act in the coming months as the 
U.S. urges Beijing to not veto the inevitable Security Council 
resolution condemning North Korea's human rights record, and to 
stop evading our sanctions policy by funneling money to support 
Pyongyang's nuclear and missile production.
    It's clear that a non-nuclear and compliant North Korea is 
an unreachable goal if the administration maintains its current 
policy approach. We cannot become comfortably accustomed to 
North Korea's possession of nuclear weapons or its systematic 
torture and killing of its own people.
    North Korea is a grave threat to the United States and our 
allies in Asia. Policies pursued by Presidents of both parties, 
with minor variations, have failed. It is time for us to 
reconsider the policies that haven't worked, and reapply those 
that have. Trading valuable concessions failed once, so let's 
not ``buy the same horse twice.'' I believe it's possible to 
disarm North Korea involuntarily without the use of force. 
Legislation was introduced last year to give the President the 
legal tools to do just that. The U.N.'s report makes it vividly 
clear that if the world community continues to dawdle, growing 
numbers of innocent North Koreans will suffer and die in 
horrific ways. Now is the time to put our resources together 
and act.
    I look forward to our witness' testimonies this afternoon, 
and discussing options we have to hold the North Korean regime 
accountable. At this time, I would like to turn to the acting 
ranking member of the committee, Ami Bera from California.
    Mr. Bera. Thank you, Chairman Chabot. And thank you for 
calling this incredibly important hearing to discuss North 
Korea's abysmal human rights record, and clearly the other 
serious issues that are taking place as North Korea postures.
    As we all know and we've talked about in the past, North 
Koreans are deprived of just the basic fundamental freedoms and 
universal human rights for decades. North Koreans don't have 
freedom of speech, they don't have freedom of movement, they 
don't have freedom of religion, and they're also subjected to 
chronic starvation and abysmal and dismal public health system.
    Last month, the U.N. released a disturbing report on the 
gross human rights violations and oppression that North Koreans 
experience under the Kim regime. The U.N. report details 
atrocious crimes against humanity that are occurring every day, 
such as persecution, murder, sexual abuse, and forced abortion. 
However, the perpetrators of these horrendous crimes remain 
immune by the North Korean justice system, which is utterly 
despicable.
    Unless rampant immunity is addressed and stopped, these 
egregious violations against humanity will, unfortunately, 
continue in North Korea. I'm also very concerned with North 
Korean's aggressive behavior toward South Korea, its nuclear 
weapons program, and the security threat it poses to the 
region.
    Just last Saturday, as the chairman mentioned, North Korea 
launched 30 short-range rockets into open waters to demonstrate 
its discontent with ongoing U.S.-South Korea military 
exercises. This morning North Korea fired two mid-range 
missiles in Japan's direction in protest for trilateral talks 
that were held between the U.S., Japan, and South Korea.
    These types of provocations are completely unacceptable and 
threaten to destabilize the region. As the world's greatest 
democracy, we must take a tougher stance with our international 
partners on North Korea's threatening antics and deplorable 
human rights record.
    Lastly, I want to highlight the importance of strengthening 
our partnership and our relationship with South Korea. In 2013, 
South Korea was the United States' sixth largest trading 
partner. According to the California Chamber of Commerce, 
California is Korea's fifth largest export destination, and in 
2013 exported nearly $8.4 billion of product to South Korea. 
It's an incredibly important relationship.
    Korean Americans also have a very deep-seated history and 
deep-seated roots in my home state of California. The vibrant 
and thriving Korean community has successfully created two of 
the largest cultural heritage centers outside of Korea in both 
Los Angeles and Oakland. Deepening our longstanding friendship 
and cooperative relationship with South Korea is imperative and 
necessary as we look to stabilize the inter-Korean 
relationship.
    I look forward to reviewing our positions, and I remain 
whole-heartedly committed in supporting a peaceful and 
prosperous Pacific region.
    Mr. Chairman, I'd like to thank you again for calling this 
crucial hearing, and I look forward to the testimony of our 
witnesses.
    Mr. Chabot. Thank you very much. And now are there any 
other members who would like to make a brief opening statement? 
I'll recognize the gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, for 
holding this hearing and let the word go forth that the 
Congress of the United States understands the monstrous nature 
of the regime that now controls North Korea.
    North Korea's military power has been financed by taking 
food from its people, medicine from its sick, education from 
its children. They have used that wealth that should have gone 
to supply just basic needs for their people, and instead used 
it to subsidize a ghoulish elite that is guilty of monstrous 
crimes, and to subsidize a military power that would then, of 
course, be used not only for their country's security against 
threats from abroad, but also be used against its own people to 
keep themselves in power.
    The North Korea horror story is testimony to the failure of 
a policy that is based on trying to change the behavior of some 
monstrous gangster regimes by treating them well, or by doing 
them favors, or trying to figure out a way of being nice to 
them thinking that that will change the fundamental nature, or 
in some way affect the decisions of those people who rule with 
an iron fist as far as North Korea.
    Mr. Chairman, I'm not sure if you were here then or not, 
but I certainly remember a debate in which I sat right over 
here years ago about whether or not we should be providing 
North Korea with energy, with oil, and whether we should help 
feed their population. And, of course, over a decade we 
provided huge amounts of food and energy for the North Korea 
Government and surprise, surprise, it didn't change the nature 
of that horrible regime. It didn't civilize the leaders of that 
country whatsoever. And today we, in fact, can see no results 
whatsoever to the hundreds of millions of dollars of 
humanitarian assistance that we gave to the people of North 
Korea, yet they are still held in bondage and their 
government--it has had no impact on their government policies 
whatsoever.
    We need to take this as a lesson, make sure that it guides 
what our decisions are in the future, which is we should be 
siding with the oppressed rather than trying to curry favor 
with the oppressor. And we have not reached out to the people 
of North Korea in an effort to eliminate that horrible regime 
that oppresses them, so I look forward to hearing more details 
about what's happening in North Korea from our witnesses.
    Mr. Chabot. Thank you. Mr. Rohrabacher, by the way, is the 
chairman of the Europe, Eurasia, and Emerging Threats 
Subcommittee. I'd now like to recognize another gentleman from 
California. We've got a lot of Californians here this 
afternoon. Brad Sherman, who is the ranking member of the 
Terrorism, Nonproliferation, and Trade Subcommittee. The 
gentleman is recognized.
    Mr. Sherman. Mr. Chairman, it was good to be with you, the 
chairman of the full committee, and others on our trip to Asia 
last month where we had a chance to meet with President Park, 
to view the DMZ, and even a few soldiers of the North Korea 
military. And one thing that's striking because I think it's 
the only place in the world where this is true, land is 
considerably cheaper in Northern Seoul than Southern Seoul 
simply because in Northern Seoul you're under the gun of more 
than tens of thousands of artillery pieces north of the DMZ. I 
think Seoul is the only great city in the world where you have 
a national security reason for land to be cheaper on one side 
of town than the other side of town.
    The gentleman from California makes a point about our aid. 
I would say that were there to be a curtailment and rollback of 
the nuclear program of North Korea, that might not help the 
people of North Korea, but it would make this a safer planet. 
And I would differ with him under those circumstances which do 
not exist and, therefore, don't differ with him.
    You know, I've served on this committee for about 18 years. 
We've heard every possible description of cruelty, but this is 
a nationwide gulag. This isn't some people being oppressed, 
this is virtually everyone. And this will go down in history as 
one of the cruelest regimes in the world, certainly the 
cruelest in Korean history.
    We should keep in mind that this regime survives only 
because of the subsidy it receives from China. And on a trade 
policy that gives China--allows China to sell $300 billion more 
in the United States than we sell there empowers Beijing, and 
Beijing doesn't always use that power for good.
    Kim Jong-un has simply added an element of immaturity and 
mercurial unpredictability, and instability to what was already 
a cruel regime.
    And, finally, we should never hesitate to call on Japan, 
and especially South Korea to spend more on its military. We 
who are blessed to behind oceans and are not on the front lines 
spend over 5 percent of our GDP on our military if you include 
veterans benefits, as I do, whereas South Korea spends roughly 
2.7 percent, Japan slightly less than 1 percent. And those who 
are on the front lines who face the greatest threat should be 
willing to spend as much of their treasure as we do. I yield 
back.
    Mr. Chabot. I thank the gentleman, and I'd at this time 
like to introduce our distinguished panel.
    We begin with Grace Jo who was born in North Korea, a place 
where she almost starved to death as a child. In 2006, Ms. Jo 
and two of her family members escaped North Korea. Soon after, 
she and her family were rescued by the United Nations High 
Commissioner for Refugees which enabled them to enter the U.S. 
as legal refugees. Grace is one of 170 refugees from North 
Korea who have settled in the U.S. She became a U.S. citizen 
last year and we congratulate you for that, and welcome you. 
Grace lives outside of Washington, DC. She and her family have 
actively protested the forced repatriation of North Korean 
escapees hiding out in China. In addition to being a human 
rights activist, she dreams of going to law school to study 
international law for the purpose of helping North Korean 
defectors. Ms. Jo works as a dental certified assistant in the 
United Dental Group to earn a living. She attends classes in 
the evening to reach her academic goals. She also volunteers 
for her sister's nonprofit organization, North Korea in USA, 
which helps North Korean refugees in the United States and 
China. And we welcome you here.
    I would next like to introduce Greg Scarlatoiu. Mr. 
Scarlatoiu is the executive director for the Committee for 
Human Rights in North Korea (HRNK) where he handles outreach 
programs aiming to focus world attention on human rights abuses 
in North Korea. Prior to joining HRNK, he was the director of 
public affairs and business issues of the Korea Economic 
Institute. He has also served as management associate for the 
International Science and Technology Institute in Arlington, 
Virginia. He previously lived in Seoul for 10 years and is 
fluent in Korean, French, and Rumanian. He has also authored a 
weekly radio column broadcast by Radio Free Asia to North 
Korea. Mr. Scarlatoiu holds master's in international relations 
from Tufts University Fletcher School of Law and Diplomacy, and 
Seoul National University, and a B.A. in international 
relations from Seoul National University. Mr. Scarlatoiu was 
conferred the title of Citizen of Honor, City of Seoul and is 
also a member of the board of directors for the International 
Council on Korean Studies, and we welcome you here this 
afternoon.
    We also have Bruce Klingner who is the senior research 
fellow for Northeast Asia at the Heritage Foundation's Asian 
Study Center. Previously, he served as the CIA's Deputy 
Division Chief for Korea where he provided analysis on 
political, military, economic, and leadership issues for the 
President of the United States and other senior U.S. 
policymakers. He was the Chief of CIA's Korea Branch, which 
analyzed military developments during a nuclear crisis with 
North Korea. Mr. Klingner is a distinguished graduate of the 
National War College where he received a master's degree in 
national security strategy. He also holds a master's degree in 
strategic intelligence from the Defense Intelligence College 
and a bachelor's degree in political science from Middlebury 
College in Vermont.
    And, as I said, we welcome all three witnesses here this 
afternoon. We have, of course, what you probably heard referred 
to as the 5-minute rule. There are lights down there that will 
let you know when you have 1 minute to go, it will turn yellow 
at that point, and when it turns red, we ask that you wrap it 
up. Your time is up at that point. We'll also limit ourselves 
to 5 minutes in asking questions. So, we'll begin with you this 
afternoon, Ms. Jo, and you probably need to turn the mic on 
there. Thank you.

   STATEMENT OF MS. GRACE JO, SURVIVOR OF NORTH KOREAN HUMAN 
                         RIGHTS ABUSES

    Ms. Jo. Thank you very much. Hello, my name is Grace Jo. 
It's very nice to see everyone here.
    I was born in 1991 in North Hamkyoung Province in North 
Korea. In 1993, our family started to have shortage of food. In 
1997 to 1998 my family was my father, maternal grandmother, 
younger siblings and big sister.
    Since I was born, my parents have tried many different ways 
to raise us. They tried to find sustenance in wild vegetables, 
grasshoppers, rats, tree barks and even cattle in government-
operated farms. In North Korea killing a cow is considered a 
crime comparable to homicide, so a person caught killing a cow 
could be sentenced to death by shooting.
    Fully aware of these facts, my parents risked their lives 
in order to feed my family. Our family did everything we could 
try but due to the government's prohibition you cannot do any 
business, and eventually even my parents ran out of ways to 
feed our family. They made the hard decision to illegally cross 
the border to China. In Spring 1997, my parents illegally 
visited a relative in China and purchased some food with their 
help.
    However, when they arrived home, my father was arrested by 
the police, and officials of our home town came with clubs and 
took my mother away after ruthlessly beating her. They also 
took away all of the food. My grandmother, my younger brother, 
my older sister, and I all cried as we tried to hold on to the 
things that they were taking away. In 1 day we lost our parents 
and our food, and our house was in ruins with nothing left for 
us. Later, we learned afterwards that my father had told the 
officials about my mother's pregnancy and begged for her 
release. However, my father admitted all the charges that they 
were accusing him of and he was punished.
    Because he was a man, he had to suffer from all kinds of 
torture by the police. In the end, while he was being 
transported to a prison on a train he passed away unable to 
stand any further.
    Continuously, many things happened that led us to leave our 
hometown and escape to China. However, we were deported back to 
North Korea four times. When we were sent back to North Korea, 
I myself did not receive too many punishments since I was a 
minor. However, the miseries I saw ripped at my heart. When 
minors are sent back to North Korea, Bo-Wee-Bu take them to 
orphanages called Koo-Ho-So. The first orphanage I was sent to 
was located in Sinuiju. In Sinuiju, among the people who are 
staying at the orphanage included a 5-week-old infant to an 18-
year-old. The directors at the orphanage gave only 40 gram of 
baby formula per day. Sixteen-year-olds were less than four 
feet tall. There were two groups of children at the orphanage. 
The first group was those few children who had enough strength 
to go out to the market field and steal food. And there were 
those who could only stay inside of the orphanage. Those who 
could move built storage rooms and did other labor.
    Inside the orphanage there were about 10 rooms and 15 to 20 
children stayed in each room. The space was so small that 
everyone had to sleep in the same direction at night. There 
wasn't enough water. And for food, instead of rice, we were 
given barley and radish soup.
    After waking up at 6 each morning, we had to work until 7 
p.m. For the smallest instance, the directors would punish us. 
And because guards stood post every day, we couldn't escape 
outside the orphanage over the wall. For an example, a 15-year-
old who was caught escaping tore his left leg tendon as a 
result of a beating. And there was no one to take care of his 
condition. Some of these children who were beaten had their 
food taken away and worked endlessly, died because of their 
weakness.
    I am 5 foot 3 inches, but when I was sent back to North 
Korea in 2006, they used to call me a giant. And one time I was 
slapped on the face on account of my height. Likewise, many 
others born in and after the `90s couldn't grow due to 
malnutrition.
    Education was available only for those children from 
families with good backgrounds, with ties to the government, 
and with ties to Communist heroes. Only those from families who 
did well enough to give money or other goods to the teachers or 
schools could attend schools. The study materials available 
were in poor quality, such as paper made from tree barks for 
writing.
    Lastly, in October 2006, there were three boiled potatoes 
that the orphanage was giving out to the children. Our family, 
before being released, was staying together for 3 days at an 
orphanage after transported to my hometown. And when we asked 
the girl who brought the potatoes to us, she said they had been 
living on those potatoes for the past 2 weeks. I was well over 
10 years old, but North Korea had not changed at all during my 
lifetime.
    A country that beats people to death like they are animals 
for having a religion, a country that sends a family of three 
generations for one family member's trivial comment, a country 
that requires a travel permit for someone to attend his or her 
parent's funeral, in novels, books, biographies, and poems, 
nothing else can be written but praises of the Great Leader. It 
is a country with absolutely no freedom, a country that abuses 
its senior citizens and mistreats its children while it labels 
them as ``treasures.'' A country that has beaten its citizens 
for the past over 20 years, a country in which the soldiers rob 
the civilians of their food. I believe in the U.S. and the 
U.N., a country and an international body that actually do 
treat the children as they should be as ``treasures.'' I would 
like to please ask the U.S. and U.N. to rescue the suffering 
North Korean people.
    I would like to please ask you, please remember the 
Holocaust. At least the survivors have finally found their 
freedom, and may live freely as all of you do. However, the 
people in North Korea have been living under tyranny over the 
past several decades, and even right now, as the people 
suffered under the Nazi regime. Please be their voice, and be 
advocates of their human rights. Thank you very much.
    [The prepared statement of Ms. Jo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much for your testimony. Mr. 
Scarlatoiu, you're recognized for 5 minutes.

STATEMENT OF MR. GREG SCARLATOIU, EXECUTIVE DIRECTOR, COMMITTEE 
                FOR HUMAN RIGHTS IN NORTH KOREA

    Mr. Scarlatoiu. On behalf of the Committee for Human Rights 
in North Korea, I would like to express great appreciation to 
Chairman Steve Chabot and the distinguished members of the 
subcommittee for holding this hearing today to highlight the 
human rights situation in North Korea and for inviting me to 
testify. Mr. Chairman, in today's oral testimony I will be 
summarizing my written statement.
    One hundred and twenty thousand men, women, and children, 
those suspected of being disloyal to the Kim regime and up to 
three generations of their families continue to be brutally 
persecuted behind the barbed wire fences of North Korea's 
political prison camps. The people of North Korea continue to 
be divided into three social categories and 51 subcategories 
based on their loyalty to the regime.
    In the mid to late 1990s, as up to 3 million North Koreans 
starved to death, the Kim regime continued to invest in the 
development of its ballistic missile and nuclear weapons 
program. The human rights situation has deteriorated under the 
Kim Jong-un regime. Three trends stands out in particular, an 
aggressive crackdown on attempted defections, a forceful purge 
of former officials, and the restructuring of North Korea's 
political prison camp system, facilities near the border with 
China have been closed while other camps have been expanded.
    The U.N. Commission of Inquiry on Human Rights in North 
Korea established by consensus by all 47 member states of the 
U.N. Human Rights Council found that in many instances the 
violations identified entailed crimes against humanity based on 
state policies. Systematic, widespread and gross human rights 
violations that have been and are being committed by North 
Korea involve extermination, murder, enslavement, torture, 
imprisonment, rape, forced abortions, and sexual violence, 
persecution on political, religious, racial, and gender 
grounds, the forcible transfer of populations, the enforced 
disappearance of persons, and the inhumane act of knowingly 
causing prolonged starvation.
    The Commission of Inquiry determined that crimes against 
humanity target anyone viewed as a threat to the political 
system and leadership of North Korea, in particular, political 
prisoners, those attempting to defect, religious believers, 
Christians in particular, people introducing information from 
the outside world into North Korea, and citizens of other 
countries abducted by North Korea.
    The Commission of Inquiry pointed out that since the 
Government of North Korea is not willing to prosecute its own 
officials, the United Nations will have to protect the 
population of North Korea and insure that those most 
responsible for crimes against humanity are held accountable.
    The Commission of Inquiry further recommended that the U.N. 
Security Council refer the North Korean situation to the 
International Criminal Court. Furthermore, the inclusion of 
North Korean human rights in the U.N. Security Council's 
permanent agenda would be a long overdue and feasible measure.
    It is our Committee for Human Rights in North Korea's view 
that the United States Government ought to support greater 
involvement by U.N. agencies in North Korea beyond the human 
rights bodies. U.N. agencies to which the United States 
Government is a significant contributor, agencies tasked with 
development of humanitarian assistance should be fully aware of 
the findings of the U.N. Commission of Inquiry and find ways to 
promote them.
    U.S.-North Korea policy has been dominated by grave 
political security concerns. The policy of Strategic Patience 
has been one of very few, if any, options within a context 
defined by the North Korean regime's lack of international 
credibility and established patterns of deceitful behavior.
    Nevertheless, crimes against humanity have been and are 
being committed in North Korea.
    As the horror of what author Mark Helprin termed as a 
``slow motion holocaust continues,'' the people and the 
Government of the United States can unambiguously afford no 
Strategic Patience that would allow the Kim regime more time to 
abuse, starve, wrongfully imprison, maim, torture, and kill the 
innocent.
    Human rights concerns must be included in the agenda of 
future bilateral and multilateral talks with North Korea should 
such talks be resumed. The international sanctions regime 
against North Korea aims to prevent the development and 
proliferation of weapons of mass destruction and ballistic 
missile technology by North Korea, and is not linked to North 
Korea's human rights situation.
    In order to achieve international momentum on a scale 
comparable to the anti-apartheid campaign of the 1980s, the 
international sanctions regime must address North Korea's human 
rights violations.
    A sanctions regime effectively addressing the North Korean 
human rights situation must sever access to funds linked to the 
crimes against humanity and other human rights violations 
perpetrated by the North Korean regime until the situation has 
been verifiably remedied. Effective sanctions should also sever 
the access to luxury goods and foreign travel for those 
officials most responsible for North Korea's crimes against 
humanity.
    Mr. Chairman, the Committee for Human Rights in North Korea 
considers it essential to bring attention to the systematic 
widespread crimes against humanity, and egregious human rights 
violations perpetrated by the North Korea regime to protect the 
victims, to bring justice to their tormentors, and without 
further delay to seek ways to improve the human rights 
situation in that country. Thank you very much.
    [The prepared statement of Mr. Scarlatoiu follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you. We appreciate your testimony. Mr. 
Klingner, you're recognized for 5 minutes.

   STATEMENT OF MR. BRUCE KLINGNER, SENIOR RESEARCH FELLOW, 
            NORTHEAST ASIA, THE HERITAGE FOUNDATION

    Mr. Klingner. Thank you, Mr. Chairman and distinguished 
members of the panel. It is truly an honor to be asked to 
appear before you on such an important issue to our national 
security.
    As we've heard from my colleagues, North Korea's crimes 
against humanity clearly show the regime is a threat to its 
citizens. North Korea under Kim Jong-un has also demonstrated 
it is a military threat to U.S. allies in Asia, a worldwide 
proliferation threat, and increasingly a direct military threat 
to the United States.
    It is fitting that today's hearing occurs on the 4-year 
anniversary of North Korea's sinking of the South Korean naval 
ship, Cheonan, a North Korean act of war which resulted in the 
deaths of 46 South Korean sailors.
    North Korea has made greater progress than widely 
perceived--if not already achieved--warhead miniaturization, 
the ability to place nuclear weapons on its short-range 
missiles, and a preliminary ability to reach the United States. 
As such, the United States and its allies face a greater threat 
today than is widely construed.
    Despite repeated U.S. attempts at diplomacy, North Korea 
refuses to abide by the commitments it made during numerous 
international agreements to give up the nuclear weapons that it 
had previously agreed never to pursue in the first place. North 
Korea now demands recognition as a nuclear armed state. It 
declared, ``There will be no more discussions over 
denuclearization of the Korean Peninsula,'' and proclaimed, 
``Only fools will entertain the delusion that we will trade our 
nuclear deterrent for petty economic aid.''
    Despite initial hopes that the new Chinese leadership would 
more fully implement U.N.-required actions against North Korea, 
Beijing instead continues to be part of the problem rather than 
part of the solution. Clearly, the United States cannot rely on 
China to constrain North Korea.
    President Obama declared that North Korea's nuclear weapons 
program was a ``threat to U.S. national security'' and vowed 
``significant, serious enforcement of sanctions,'' but despite 
this, the United States has pursued a policy in which we only 
incrementally increase punishments on Pyongyang toward repeated 
defiance of the international community.
    The United States has pulled its punches when targeting 
financial measures against North Korea. By contrast, the U.S., 
EU, and U.N. have imposed far more pervasive and compelling 
measures against Iran, even though Pyongyang and not Tehran has 
withdrawn from the non-proliferation treaty, tested nuclear 
weapons, and repeatedly threatened nuclear attacks on the 
United States and its allies.
    By adopting a sanctions policy of timid incrementalism, 
with promises to be tougher the next time that North Korea 
misbehaves, the U.S. is squandering the opportunity to more 
effectively impede progress on North Korea's nuclear and 
missile programs, and coerce compliance with U.N. resolutions. 
Just as strong measures induced Iran back to the negotiating 
table, more robust sanctions are needed to leverage North 
Korea.
    There is a widespread misperception that North Korea is the 
most heavily sanctioned country in the world, and there's 
nothing more that can be done. That is simply not true. In my 
submitted testimony I've provided an extensive list of 
additional specific financial measures that the U.S. can and 
should impose on North Korea, as well as against non-North 
Korean entities that are violating U.S. law and U.N. 
resolutions.
    Most of these recommended actions have already been applied 
against other nations, including Iran and Burma. These are 
targeted financial measures against the regime and other 
violators, not the North Korean people themselves. In essence, 
they are financial precision guided munitions and not economic 
carpet bombing against the populace.
    Since it is a unilateral U.S. financial strategy against 
violators, China cannot veto it and Beijing will find it harder 
to block than a diplomatic strategy or traditional trade 
sanctions.
    A few of these recommended actions are to: Designate North 
Korea as a primary money laundering concern, as the U.S. 
previously did with Iran and Burma; ban North Korean financial 
institutions correspondent accounts in the United States--even 
financial institutions not doing business in the U.S. would be 
affected since nearly all dollar denominated transactions 
internationally must pass through U.S. Treasury-regulated 
banks; publicly identify and sanction all foreign companies, 
financial institutions, and governments assisting North Korea's 
nuclear and missile programs; impose third-party sanctions on 
entities that trade with those on a sanctions list; compel the 
removal of North Korea from the SWIFT financial transfer 
network as Iranian banks were in 2012; formally charge North 
Korea as a currency counterfeiter; tighten maritime counter 
proliferation by targeting shipping companies and airlines 
caught proliferating; and finally, enhance U.S. inspections of 
shipping companies transiting ports that consistently fail to 
inspect North Korean cargo.
    In conclusion, the current U.S. policy of Strategic 
Patience is predominantly passive because it fails to impose 
sufficient pressure to effectively degrade North Korea's 
capabilities or alter its behavior. Minimalist measures have 
only encouraged North Korea to continue to expand and refine 
its nuclear arsenal of missiles and embolden it to proliferate. 
The U.S. has sufficient tools, it has only lacked the resolve 
to use them.
    Finally, I would submit that the operative question should 
be why would the United States hesitate to impose the same 
measures on North Korea that Washington has already implemented 
on other countries for far less egregious violations?
    I thank you again for the opportunity to appear before you, 
and I look forward to your questions.
    [The prepared statement of Mr. Klingner follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much. We appreciate the 
testimony from all three of the witnesses here this afternoon. 
I'd now like to recognize the gentleman from the Commonwealth 
of Virginia, Mr. Connolly, for the purpose of making an opening 
statement.
    Mr. Connolly. Thank you so much, Mr. Chairman. I appreciate 
very much your holding this hearing. I also appreciate the 
testimony particularly of Ms. Grace Jo, and just listening to 
what she went through and her family went through. Thank you so 
much for the courage of testifying today.
    I'm also, Mr. Chairman, delighted that the chairman of the 
committee has announced that we're going to actually markup 
H.R. 1771, North Korean Sanctions. And, Mr. Klingner, am I 
pronouncing that right? Thank you for your list, very helpful, 
because I think they do need to have teeth.
    Two points I would just make, Mr. Chairman, listening to 
this panel. One is, it is imperative that the United States put 
teeth into the sanctions it imposes in the North. They should 
never be less than what they are with some other rogue states. 
And, secondly, we may have an opportunity with respect to 
China, and I know we're going to explore that on this panel. 
But the fact of the matter is, when Kim Jong-un executed his 
uncle, he executed the Chief Interlocutor with the People's 
Republic of China. And in doing that, perhaps the Chinese got 
the message that their longstanding policy with respect to 
North Korea may no longer be tenable. And that may give us a 
diplomatic opportunity. And, again, I very much look forward to 
talking with the panel about that.
    Mr. Chairman, thank you so much for the opportunity.
    Mr. Chabot. Thank you very much. I'll now begin by 
recognizing myself for 5 minutes for the purpose of asking 
questions.
    China's policy toward North Korea, and Mr. Connolly already 
alluded to this, appears to have undergone some evolution in 
the year since Xi took office. In some instances, appearing to 
be more willing to express its displeasure with Pyongyang. 
What, if anything, can be done to influence China, who is, 
after all, the key here and has the most influence to pressure 
North Korea, to lean on them to civilize itself. That seems to 
be beyond the capability of this regime but to at least be less 
oppressive to its people than it currently is? I would welcome 
any of the witnesses to talk to us about that. Mr. Klingner.
    Mr. Klingner. Yes, sir. As I said, there were hopes that Xi 
Jinping would be different, and a year ago during the time when 
North Korea was heightening tensions to a dangerous level it 
appeared China was more angry with its recalcitrant ally. Since 
then, since North Korea has shifted back to a charm offensive, 
we've seen Beijing sort of walk back from those initial 
positive hopeful steps.
    Most recently, we've seen China has rejected the U.N. 
Commission of Inquiry's Human Rights Report saying its 
``divorced from reality,'' and they have refused U.N. action to 
refer it either to the ICC or a tribunal. We have seen in the 
past, China has turned a blind eye to proliferation that 
transited its country--North Korean missile parts, for example, 
going to Iran. We've seen it refuse to take actions when the 
U.S. Government even provided information.
    It did recently take action, it severed financial relations 
with North Korea's Financial Trade Bank. It had done this a 
decade ago, and then undid that action, so there are a number 
of things China has done, but then undid them. So, again, I 
think we need a focus on a unilateral U.S. strategy rather than 
on China in the U.N. Security Council.
    Mr. Chabot. Thank you. Mr. Scarlatoiu, did you want to add 
anything to that?
    Mr. Scarlatoiu. Certainly, Mr. Chairman. China is an 
aspiring super power that helped establish and maintain the Kim 
regime in power for more than 60 years. In a letter addressed 
to the President of China, the Commission of Inquiry made it 
clear that by its policy of forcibly returning North Korean 
refugees to conditions of danger, China puts itself in a 
position where it is aiding and abetting a regime that has 
committed crimes against humanity.
    Certainly, as Mr. Klingner has pointed out, the 
recommendation that the Security Council submit, refer the case 
to the International Criminal Court is unlikely to happen over 
the short to medium term, in particular because of a potential 
Chinese veto.
    For what it's worth, we might as well push the Chinese and 
place them in a position where they actually have to exercise 
their right to veto as a permanent member of the Security 
Council, further reinforcing the clear impression that China is 
aiding and abetting a regime that has committed crimes against 
humanity.
    Mr. Chabot. Thank you very much. Ms. Jo, if I could turn to 
you now, and ask you a different question. As a refugee 
yourself, could you share with us your insights about the 
obstacles that you faced obtaining refugee status in the U.S., 
and about the humanitarian conditions that North Korean 
refugees face, in general?
    Ms. Jo. Yes, sir. As a refugee our family has lived in the 
United States almost 6 years now. And in the beginning we had 
support from the government, about 8 months, which is Medicare 
and Food Stamps, and cash about $250 for each person, so that 
helps our family a lot. And I believe most of the refugees they 
do get same benefits as our family.
    The one thing I would like to ask government to support 
refugee, which is North Korean refugees, is we need some sort 
of organization to support new refugees to educate them in 
society, and in America, the language different, and society is 
different. It's very difficult to assimilate in the society as 
a refugee, so I don't know is there any organization we can 
educate them, but I would like to ask government to support 
some organization to educate them and support them about a year 
or year and a half to help them to know the United States. 
Thank you.
    Mr. Chabot. Thank you very much. I appreciate it. My time 
has expired. The gentleman from California, Mr. Sherman, is 
recognized for 5 minutes.
    Mr. Sherman. Ms. Jo, thank you for your courage and for 
telling us your story.
    Mr. Klingner, how many nuclear weapons, and I realize this 
is unclassified and just does North Korea have, or at least 
have enough fissile material to create? And can you tell us the 
status of uranium and plutonium programs to create additional 
weapons?
    Mr. Klingner. Well, sir, the information on North Korea is 
very difficult to get. Even when I was in the intelligence 
community, we referred to it as the hardest of the hard 
targets. But I think experts generally assess that North Korea 
likely has six to eight plutonium-based nuclear weapons. The 
uranium program I believe is much further along than some 
believe it has achieved because it has been underway since the 
late 1980s. It also received critical support from Pakistan and 
the A.Q. Khan Network. There's been a rogues gallery of 
interaction with Iran, Pakistan, A.Q. Khan, Libya, and North 
Korea where they exchanged valuable information and components. 
So, I think in return for North Korea assistance on putting 
warheads onto short and medium-range missile to Pakistan, 
Pakistan replied by providing centrifuges and critical----
    Mr. Sherman. So, their plutonium program generated enough 
fissile material, from six to eight weapons, and the consensus 
seems to be that that program is not producing any more fissile 
material?
    Mr. Klingner. It has been dormant for some years, but we've 
seen just in the last year from unclassified satellite imagery 
that North Korea is expanding its uranium reprocessing 
facilities. The reactor program at Yongbyon, as well as two 
very extensive missile launch facilities on the east and the 
west coast.
    The latest missile test, I'm sorry, the latest nuclear test 
may have been uranium, but we were unable to determine whether 
it was plutonium.
    Mr. Sherman. I would point out that there's a focus on 
missiles, even missile defense. And, obviously, the highest 
status for a dictator is to have a nuclear tipped 
intercontinental ballistic missile, but the less prestigious 
way to deliver a nuclear weapon is to smuggle one, and you can 
easily smuggle one into the United States inside a bale of 
marijuana.
    We're not safe from this. We declared that it was 
unacceptable for North Korea to have a nuclear weapon, and then 
went to sleep pretty much. So, we are now in a position where 
it may be in our interest to negotiate with a terrible regime 
and to provide the kind of aid that Mr. Rohrabacher would decry 
if there was a way to limit them to their current six to eight 
plutonium-based weapons. The only thing worse than North Korea 
with six to eight weapons is a North Korea with 16 to 18 
weapons.
    Has the North Korean Government shown any interest in even 
limiting, let alone disgorging, the fruits of its nuclear 
weapons program, Mr. Klingner?
    Mr. Klingner. No, sir. They made very clear under Kim Jong-
il, and now under Kim Jong-un that they have no intention of 
abandoning their nuclear arsenal. They have repeatedly----
    Mr. Sherman. Of abandoning or even failing to augment, or 
just they have no intention to abandon, or no intention to fail 
to augment?
    Mr. Klingner. Right. They have violated the four previous 
agreements that they signed to never pursue a nuclear weapons 
program. They violated the three agreements to denuclearize. 
They've indicated no indication that they want to pursue that.
    Mr. Sherman. So, we have no reason not to follow every one 
of your suggestions as to how to impose additional sanctions.
    Mr. Klingner. What I recommend is, as part of a 
comprehensive integrated strategy, using conditional 
engagement, and also more effective punitive measures to try to 
compel them to return to their denuclearization commitments. 
And then since perhaps those two----
    Mr. Sherman. Well, the problem we have on denuclearization 
is Gaddafi gave up his nuclear program which was more advanced 
than we realized. Saddam gave up his weapons of mass 
destruction, the Ukraine gave up the third largest nuclear 
arsenal. Gaddafi and Saddam are dead, and Ukraine doesn't have 
Crimea. It's going to be very hard to convince any country that 
has nuclear weapons to give them up given that track record.
    We may be able, though, to halt progress toward future 
weapons whether it be Iran, which is still at zero, or North 
Korea, but I think that goal of a non-nuclear North Korea is a 
goal we should have stuck to, and didn't. But I thank you for 
outlining the possible actions we could take to try to create a 
verifiable destruction of those tools that they are using, 
particularly in the uranium area, to expand their stockpile of 
nuclear weapons. And given how this regime treats its own 
people, it's pretty important to make sure they don't have even 
more. I yield back.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from Pennsylvania, Mr. Perry, is recognized for 5 
minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Scarlatoiu, what would you characterize as the 
successes of our policy of Strategic Patience?
    Mr. Scarlatoiu. Mr. Perry, certainly in our area of human 
rights, unfortunately the greatest challenge that we face is 
that we have paid a lot of attention to the very important 
political security challenges that we face on the Korean 
Peninsula, but not the human rights considerations.
    I think that we need to take those concerns into account 
because concern for human rights is part of who we are, because 
these are values that we share with our friends, partners, and 
allies in Northeast Asia and beyond, in particular, with----
    Mr. Perry. Let me--pardon my interruption, but let me 
rephrase it.
    So, are there any successes, strategic, tactical, nuclear, 
human rights, are there any successes to this strategy that you 
can enumerate for me?
    Mr. Scarlatoiu. As far as I can see, there are no 
successes, Congressman Perry. As far as I can see, the policy 
of Strategic Patience is one of very few, if any, available 
options that we have under the current circumstances, in 
particular, because North Korea has entirely lost its 
international credibility, as Mr. Klingner was mentioning, by 
joining the non-proliferation treaty, pulling out of the non-
proliferation treaty, joining the Geneva Agreed Framework, 
pulling out, most recently in 2012 agreeing to the leap day 
agreement, then two and a half----
    Mr. Perry. Right. I mean, we know that they don't honor any 
of their commitments. I'm just--I'm frustrated, I think as many 
Americans are, that what we're doing is just kind of sitting 
back and waiting to see what happens; meanwhile, the things 
that Ms. Jo enumerated are occurring on a minutely, 
instantaneous basis every hour of the day. And it breaks our 
heart to know that, and know that we're literally doing nothing 
about it. Let me move on.
    Mr. Klingner, how do you view the international interim 
nuclear deal with Iran in relation to the North Korean nuclear 
problem? Do you see any juxtaposition, does one have any effect 
on the other, or does one incentivize North Korea in a certain 
way, or not? Is there any interplay whatsoever in your mind?
    Mr. Klingner. Well, in reviewing the interim agreement, I 
certainly had a case of deja vu having followed North Korea for 
20 years. I think there are lessons that we've learned from 
negotiating with North Korea that should be applied with Iran. 
I think we need very extensive, very detailed negotiations or 
agreements like we had with the Soviet Union in the Warsaw 
Pact. We need very, very stringent verification measures to 
insure that North Korea or Iran is not cheating, as North Korea 
repeatedly has done in the past.
    We need to have the willingness to walk away from the table 
if it's a bad deal. I think in the past with North Korea we 
often saw, as one negotiator put it, the desire to keep the 
bicycle moving. If it stops, it falls over, so the negotiations 
were kept going for the sake of----
    Mr. Perry. So, we learned, but in essence we--I mean, 
learning is this--I would think you would take a different 
action based on what you learned from the mistakes that you 
learned. But we have the information, we know what was 
successful, we know what failed, but we haven't applied any of 
that in Iran, if I could be succinct about your answer.
    Mr. Klingner. I think the lessons are there. Whether we've 
learned them is a different story.
    Mr. Perry. All right. Do you accept the assessment of the 
U.S. Intelligence Committee that North Korea will be deterred 
from using nuclear weapons except possibly in the scenario of 
imminent regime collapse?
    Mr. Klingner. I would largely agree. I think they realize 
that using nuclear weapons would bring about the end of their 
regime and the end of their country. I think their nuclear 
weapons are intended more for compellence or coercion. The U.S. 
and South Korea have been deterred from responding to military 
attacks that North Korea has committed in the past even before 
they had nuclear weapons. And now that they have nuclear 
weapons, North Korea would think that they could get away with 
more than they did before.
    Mr. Perry. Okay, thank you. I will tell you that I--as 
other members of the panel listened intently to your list of 
potential options for the United States, and I'll be working 
with the chairman and the other members of the committee to 
help draft that legislation, partly due to the list that you've 
provided, or with that in mind, because I think it would be 
very helpful.
    Just in the time remaining, Ms. Jo, your story is 
incredibly compelling, and I could tell you, I think it breaks 
everyone's heart in the room, and if every American could hear 
it, it would break their heart. But from your point of view, 
and I understand you've been gone a long time, and you were 
there as child, but the things you've seen and endured, what 
from your perspective would make a difference to turn that 
leadership around, to turn--to have the people rise up against 
this oppression, to completely change the situation in North 
Korea? What will motivate--is there anything that could 
motivate the people? Is there any chance for the people to do 
this on their own, and some way for the United States and the 
United Nations to motivate that, empower that, encourage that?
    Ms. Jo. Politically, I don't have full educated, so I 
cannot give you the exact answer. But in my opinion and 
thinking, the United States, we can help the Ministries or the 
individual people who already escaped into China, who are 
seeking freedom. So, we can rescue refugees in China to the 
freedom country. And once we rescue hundreds, thousands 
refugees from North Korea, I believe one day North Korean 
regime will fall down.
    Mr. Chabot. Thank you very much, and thank you for your 
answer.
    Ms. Jo. Thank you.
    Mr. Chabot. We appreciate that. The gentleman from 
Virginia, Mr. Connolly, is recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Klingner, first of all, I don't--it's not often I find 
myself in near total agreement with the Heritage Foundation, 
but I must say I found your testimony right on, and very 
helpful in terms of not just providing a critique of U.S. 
policy, but giving us a roadmap for how we might become much 
more efficacious. And I thank you for that contribution, as 
well, and I echo what my colleagues said.
    I think when--I've written the chairman requesting a markup 
of H.R. 1771, and we're going to do that. And when we do, we 
certainly will take a very close, hard look at your 
recommendations, so this hearing is very timely.
    Let me ask you about China. How important do you think 
China is to the ultimate issue of North Korea and ultimate 
reunification? Conventional wisdom had it that the Chinese 
would never support reunification, that having the hermit 
kingdom sort of under their thumb served their interest, 
keeping the peninsula divided served their interest, but you 
could make the case that perhaps in light of recent events and, 
frankly, the opening up of the Chinese economy, they have a lot 
more in common with the South than they do with the North. And 
that the North has now become an albatross more than anything 
else. And in this case even a sort of unpredictable albatross, 
if such a thing exists. I don't know if albatrosses can be 
unpredictable, Mr. Chairman, but let's assume they can. 
Especially in light of the execution of Kim Jong-un's uncle.
    So, how important is China? What leverage do they have? And 
are we--do we have reason to believe as the United States that 
they might be more open to our importunings than in the past?
    Mr. Klingner. You ask a very good question, sir, because 
experts on China and North Korea have been struggling with 
that, and we haven't come to an answer.
    The Chinese-North Korean relationship is complicated, and 
what we've seen in China, even at the senior leadership level, 
is a split between, if you will, old school who support their 
ally and alliance forged in blood, and the younger leadership 
who sees, as you pointed out, North Korea is an albatross. The 
future of China on the Korean Peninsula is with the South for 
economic reasons, so there is that struggle. But to date, the 
old school has outvoted the new school.
    As for unification, the Bush administration, the Obama 
administration, and Track II discussions outside of government 
have tried to get China to articulate what are its red lines, 
what are its thoughts toward unification, would it accept it? 
What would cause it to go into North Korea? And China has been 
resistant, so that lack of transparency is very concerning to 
U.S. and South Korean policy makers.
    Just yesterday when Xi Jinping met with Park Eun Ji, he 
seemed to indicate acceptance of unification or support for 
President Park's unification approach. We don't know how much 
we can take that to the bank. One would hope China would 
acquiesce to a Korean unification, but we don't know. And that 
uncertainty is of great concern to the United States.
    Mr. Connolly. What is the remaining leverage Beijing has on 
Pyongyang?
    Mr. Klingner. Although it has the most leverage of any 
country in the world on North Korea, its amount of leverage is 
less than perhaps people think. Of course, you can point to the 
overwhelming majority of economic engagement from North Korea 
to China, it's its largest trading partner. You know, people 
say China could cut off the food and the fuel, but China is 
unlikely to do that. That would create a crisis on the border, 
which is what they want to avoid.
    So, I think what the U.S. needs to do is point out to China 
that its refusal or its resistance to putting pressure on North 
Korea is bringing about the very crisis it doesn't want. It's 
encouraging North Korea to pursue these nuclear programs and 
missile programs, to engage in deadly acts of attack on South 
Korea, which will bring about U.S. and South Korean military 
responses that Beijing doesn't want. We need to make clear to 
Beijing that it can act now, or it can act later.
    Mr. Connolly. One can also say that, I suppose, of the kind 
of situation Grace Jo described. I mean, returning North Korean 
refugees who get into China back to the North Korean regime is 
virtually a death sentence, and certainly a terrible blemish on 
the Chinese record. And one wonders whether the Chinese think 
that continuing that policy makes any sense in light of the 
brutality and the lack of international acceptance of the North 
and its behavior by any norms at all.
    Mr. Klingner. Right. As my colleagues can address far 
better, is that forced repatriation is itself in violation of 
international accords.
    Mr. Connolly. If the chairman would allow Mr. Scarlatoiu to 
address the questions, then I will relent.
    Mr. Chabot. Sure. The gentleman's time is expired, but Mr. 
Scarlatoiu can respond.
    Mr. Connolly. I thank the chair.
    Mr. Scarlatoiu. Thank you, Congressman Connolly.
    China joined in 1982 the U.N. Refugee Convention, the 1951 
Refugee Convention. Pursuant to that Convention, if a person is 
repatriated and faces conditions of danger, then that person 
automatically qualifies to be granted access to the process 
leading to acquiring political refugee status. We have had 
numerous credible reports of North Koreans who were forcibly 
returned by China, especially those who came in contact with 
South Koreans or Christian missionaries along the road of 
defection were tortured, beaten, imprisoned in political prison 
camps, North Korean women who became pregnant with Chinese men 
along the road of defection, were subjected to sexual violence, 
rape. We have credible reports of infanticide, forced 
abortions.
    China continues this policy of forcible repatriation of 
North Koreans claiming that they're illegal economic migrants. 
Last week in Geneva on the 17th of March, right after the 
submission and the presentation of the report of the U.N. 
Commission of Inquiry by Judge Michael Kirby of Australia, 
China again stated that these North Korean refugees are not 
political refugees, but illegal economic migrants which makes 
absolutely no sense, and is a flagrant violation of the 1951 
Refugee Convention.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
We'll go into a second round in case any other members have 
questions. We're going to have votes here shortly, so just a 
couple of quick questions.
    Mr. Scarlatoiu and Mr. Klingner, let me ask you this first 
question: You both mentioned the need for more effective and 
targeted sanctions against North Korea that link sanctions to 
North Korea's human rights abuses. And we've mentioned the 
legislation that's being contemplated here, H.R. 1771. Could 
you touch briefly on what in H.R. 1771 you like that may 
actually have some impact? Mr. Scarlatoiu?
    Mr. Scarlatoiu. Chairman Chabot, the Committee for Human 
Rights in North Korea recognizes that the North Korea Sanctions 
Enforcement Act of 2013 addresses not only North Korea's 
nuclear and missile programs, but also identifies human rights 
violations as conduct that is subject to sanctions.
    The Committee for Human Rights in North Korea appreciates 
that H.R. 1771 also insures that humanitarian assistance to 
North Korea is not affected by the sanctions in the spirit of 
targeted sanctions called for by the recently released report 
of the U.N. Commission of Inquiry.
    We are aware that the revised draft of the legislation 
actually insures that funds that would otherwise have been used 
by the North Korean regime to purchase ski lifts, luxury goods, 
weapons and missile components will be used for the purchase of 
humanitarian supplies, food, and medicine for those who need it 
most for the North Korean people. It is certainly also 
important to insure that humanitarian assistance is adequately 
monitored and reaches those who need it most, the most 
vulnerable people of North Korea.
    Mr. Chabot. Thank you. Mr. Klingner, did you want to 
comment on that?
    Mr. Klingner. Yes. H.R. 1771 certainly has an extensive 
list of actions that--I noticed a lot of overlap with my own 
recommendations.
    I think, notably, on the human rights front, that is 
something that has lagged on the North Korean side, as we've 
seen legislation against Iranian human rights violations, 
Syrian. And I think just to go along sort of my theory of do 
unto North Korea as we have already done unto other violators 
of either human rights accords, or U.S. law, international law, 
U.N. resolutions.
    So, I think--and a good starting point is look at the 
Commission of Inquiry's listing of the many North Korean 
Government entities or organizations that it condemns as being 
involved in these human rights violations. They should go on a 
U.S. sanctions list, not only the organizations themselves, but 
the individuals who head those organizations. I think that 
would be a very good starting point.
    Mr. Chabot. Thank you. This one is my last question. Ms. 
Jo, how do you assess the impact of foreign radio broadcasts 
from the U.S. and South Korea into North Korea? I think the 
administration favors increasing them and there's some question 
as to how effective they've been. How effective do you think 
they have been? Is there any way to make radio broadcasts into 
North Korea more effective? Did you ever hear anything like 
that? How old were you when you left, when you got out of North 
Korea?
    Ms. Jo. The last time was 16, 16-years-old.
    Mr. Chabot. Okay. Did you ever hear any radio broadcast 
coming in from outside of North Korea that said anything that 
would let you know what's really happening out there in the 
rest of the world? Did that ever happen?
    Ms. Jo. When I get international news or information is in 
China, yes.
    Mr. Chabot. From China. You didn't get anything from the 
U.S. or from South Korea that you're aware of then, I guess?
    Ms. Jo. Before we come to the United States.
    Mr. Chabot. Yes.
    Ms. Jo. We only watched the news about America. That's the 
only information we got from Chinese TV.
    Mr. Chabot. And that was from Chinese TV channels? Okay.
    Ms. Jo. Yes.
    Mr. Chabot. Okay, thank you. Okay. I'll turn the question 
over to you gentlemen then.
    Mr. Scarlatoiu. Mr. Chairman, the company tasked to monitor 
broadcasting to North Korea, InterMedia, published a couple of 
years ago--back then, InterMedia was tasked to perform this 
mission, published an excellent report entitled, ``A Quiet 
Opening.'' It conducted interviews with North Korean defectors, 
North Korean escapees. About one-third, 30 percent of them 
stated that they had listened to foreign broadcasting while in 
North Korea. Foreign broadcasting also includes broadcasting by 
stations based in South Korea.
    For the past 10 years, we have seen a constant increase in 
the percentage of North Korean defectors who stated that they 
had listened to foreign broadcasting. Certainly, this does not 
necessarily mean that one-third of all people of North Korea 
listen to foreign broadcasting. These were those who were most 
likely to actively seek out information from the outside world, 
but North Korea is a country where radios have been sealed and 
basically set to one set government frequency. In the aftermath 
of the great famine of the 1990s, small informal markets have 
developed as a coping mechanism, not as the result of top down 
reform, and cheap radios have been available in these open 
markets, so more North Koreans have had access to radios, and 
to broadcasting stations based here in the United States, and 
also in South Korea.
    Mr. Chabot. Thank you. My time has actually expired. Mr. 
Klingner, did you want to add anything on the broadcasts into 
North Korea?
    Mr. Klingner. Yes, if I could, sir. Information is one of 
the instruments of national power of the United States, along 
with diplomacy, military, economic, and other means. And 
getting information into North Korea I think is good. It's 
beneficial. It can have a corrosive effect on the regime. And 
we can do that through overt and covert means. Overt is through 
exchanges which are fine. We shouldn't oversell them as a 
substitute for conditional diplomatic engagement or more 
effective punitive measures.
    We also should do it covertly. There's been a great deal of 
information that's gotten into North Korea through thumb 
drives, through pamphlets being transported by balloons, people 
bringing in DVDs and others. And that really shows the people 
of North Korea the reality of their own regime, as well as the 
reality of the outside world. So, I think we should do 
everything we can to encourage getting information in and out 
of North Korea through any means possible.
    Mr. Chabot. Thank you very much. As I said, my time is 
expired. We do have votes on the floor, but the gentleman from 
Virginia is recognized for up to 5 minutes.
    Mr. Connolly. I'll just ask one question as a follow-up if 
I may. Well, actually, two.
    Mr. Klingner, with respect to the chairman's last question, 
you had been talking earlier about we ought to do unto North 
Korea what we've been willing to do to Iran. Do you think one 
of the reasons there's been some reluctance to do that is that 
one of the differences is Iran is sensitive to the impact of 
sanctions on its own population; whereas, North Korea seems to 
be utterly insensitive to the impact of sanctions or any other 
economic consequences, and is willing to have some percent of 
its own population starve to death, or suffer severe 
malnutrition rather than to bend the knee or relent. Is that--
do you think that that may be one of the concerns the West has, 
that in inflicting punishment on a regime we're, in fact, 
directly inflicting punishment on innocent civilians?
    Mr. Klingner. Actually, I think the reluctance to impose 
greater punitive measures on North Korea really is 
counterintuitive. As I said before, North Korea has withdrawn 
from the NPT. It's exploded nuclear devices. It says blatantly 
its nuclear program is for military purposes, and it also 
doesn't have a valuable commodity, oil, like Iran does. One 
would think there would be far greater sanctions on North Korea 
than Iran, but it's the opposite.
    I think it's also useful to point out, though----
    Mr. Connolly. I guess what I'm getting at is why do you 
think that is so? And I'm offering you perhaps one theory for 
why it may be so, which in a strange way is a humanitarian 
reason.
    Mr. Klingner. Right. But, actually, the targeted financial 
measures are not--would not impact the populace. They are not 
trade sanctions, they are not general sanctions. They are going 
after very specific financial links of the regime and other 
violators to the outside world. So, you know, I think the 
reluctance really is puzzling, not only to experts on North 
Korea, but particularly South Korean citizens who can't 
understand why the U.S. and the international community has 
been more reluctant to impose these things on North Korea. So, 
you know, it's targeted financial measures that we want, not 
broad sanctions that would impact the populous.
    Mr. Connolly. Yes. Thank you very much.
    Mr. Scarlatoiu.
    Mr. Scarlatoiu. Scarlatoiu, yes, sir.
    Mr. Connolly. Can you just briefly bring us up to date on 
one of the more bizarre practices of the North, and that is 
this whole phenomenon of abductees? It sounds to the 
uninitiated almost like a science fiction UFO kind of thing, 
abductees but, in fact, it's real.
    Mr. Scarlatoiu. Congressman Connolly, thank you for the 
question. Our organization, the Committee for Human Rights in 
North Korea produced the only extensive English language report 
on this topic published 3 years ago entitled, ``Taken.'' One 
hundred and eighty thousand citizens of South Korea and other 
countries, including Japan and others have been taken by the 
North Koreans beginning on the 25th of June, 1950 when the 
North Korean military attacked South Korea. The practice goes 
back to a decree by Kim Il-sung. They initially intended to 
bring over the best and the brightest from South Korea to set 
up a new society. Most of them ended up in political prison 
camps. Ethnic Koreans from Japan who decided to return to North 
Korea, or were pushed to return at the time were never allowed 
to leave. Their Japanese spouses were not allowed to leave. 
There have also been foreign nationals of countries, including 
even, for example, Romania, former Communist ally of North 
Korea, who were taken, who were abducted by North Korean 
agents. They were forced to teach foreign languages and 
cultures to North Korean intelligence operatives. Their 
identities were used in North Korea's covert operations. And as 
I'm sure you recall, Congressman Connolly, in 1987, two North 
Korean agents bombed Korean Air Flight 858, before the 1988 
Seoul Olympics. The two North Korean agents who bombed the 
plane posed as Japanese nationals, one of them, a woman, 
survived, sentenced to death. She survived, her sentence was 
commuted, married her bodyguard, became a star in South Korea, 
and told the story of how some of the Japanese abductees had 
provided training while she was in spy school.
    Mr. Connolly. It's an unbelievable story, and it deserves 
much more attention. Thank you for doing the only English 
report on this terrible practice. And, again, thank you to all 
of the panel for being with us today. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired. I also want to reiterate what the gentleman just said. 
I think this has been an excellent panel. We especially thank 
you, Ms. Jo, for having gone through this personally, and the 
trauma that you've suffered during the course of your life. 
Thank you, gentlemen, for devoting your lives to a critically 
important issue here. We appreciate it very much.
    Members will have 5 days to submit questions, or to revise 
and expand any of their remarks. If there's no further business 
to come before the committee, we're adjourned. Thank you very 
much.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
